U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




    Bureau of Industry and Security

           FY 2009 FISMA Assessment of
               BIS IT Infrastructure (BI)
                                (BIS002)

  Final Inspection Report No. OSE-19574/September 2009




                             Office of Audit and Evaluation
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington, D.C. 20230




September 30, 2009

MEMORANDUM FOR: Daniel O. Hill
                Acting Under Secretary for Industry and Security and
                   Deputy UnderSecretary for Industry and Security




FROM:                        Allen Crawley
                                              ~c~~~
                                                 ~
                             Assistant Inspector General
                                for Systems Acquisition and IT Security

SUBJECT:                     Bureau of Industry and Security
                             FY 2009 FISMA Assessment ofBIS IT Infrastructure (BI)
                             (BIS002)
                             Final Inspection Report No. OSE-19574

This report presents the results of our Federal Information Security Management Act
(FISMA) review of BIS' continuous monitoring of security controls as part of the
certification and accreditation (C&A) process for the BIS IT Infrastructure (BIS002).

We found that BIS' continuous monitoring for BIS002 did not meet Department and
FISMA continuous monitoring requirements. We found that continuous monitoring has
not been conducted since accreditation of the system in FY 2006 and that significant
C&A deficiencies identified by the OIG in FY 2006 following C&A have not been
corrected. In addition, OIG's own assessment of selected security controls found
numerous vulnerabilities requiring remediation. Our findin s are of articular concern
because BIS has categorized BI as a



In its response to our draft report, BIS did not dispute our findings but did not specifically
indicate whether it agreed with our recommendations. After receiving BIS' s response, I
spoke with BIS' acting chief information officer, who stated that BIS agreed with our
findings and recommendations. BIS' response is included in its entirety as appendix C.

We request that you provide us with an action plan describing the actions you have taken
or plan to take in response to our recommendations within 60 calendar days of the date of
this report. A plan of action and milestones should be used to communicate the plan as
required by FISMA.
We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-1855.




Attachment

cc:	   Suzanne Hilding, chief information officer, U.S. Department of Commerce
       Eddie Donnell, acting chief information officer, BIS
       Raushi Conrad, director, System and Security Operations, BIS
                     OIG FY 2009 FISMA Assessment


Listing of Abbreviated Terms and Acronyms
BI            BIS IT Infrastructure System
BIS           Bureau of Industry and Security
C&A           Certification and Accreditation
CIO           Chief Information Officer


DISA          Defense Information Systems Agency
FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act of 2002


IP            Internet Protocol
IT            Information Technology




NIST          National Institute of Standards and Technology
NTP           Network Time Protocol
OIG           Office of Inspector General
OMB           Office of Management and Budget
POA&M         Plan of Action and Milestones


SID           System Identifier




TCP           Transmission Control Protocol
UDP           User Datagram Protocol




                                  Page 2

                                   OIG FY 2009 FISMA Assessment


  Synopsis of Findings

      •   Continuous monitoring has not been conducted since the FY 2006 accreditation.

      •   Significant certification and accreditation deficiencies previously identified by OIG
          have not been corrected.

      •   OIG assessments found vulnerabilities requiring remediation.

  Conclusion
      Since the BIS IT Infrastructure system (BI) was authorized to operate in June 2006, BIS
      has not followed the Department’s IT security policy and NIST requirements for securing
      this              system. BIS has not conducted control assessments, assessed the
      impact of configuration changes on the system, reported and corrected known
      vulnerabilities, and addressed significant deficiencies identified in a previous OIG
      evaluation conducted in FY 2006. As a result, the system owner has not provided the
      authorizing official with assurance that the required controls are adequately protecting the
      system and its information. Thus, BIS should not have reported to OMB and the
      Department that annual assessments of security controls were conducted or that the
      system was certified and accredited.




Summary of BIS Response

In its response to our draft report, BIS did not dispute our findings but did not specifically indicate
whether it agreed with our recommendations.

BIS explained that it will produce an action plan to address our recommendations, and its FY
2010 President’s Request will provide the resources needed to replace the system with a more
secure infrastructure.

BIS’ response is included in its entirety as appendix C of this report.

OIG Comments

After receiving BIS’ response, OIG’s assistant inspector general for systems acquisition and IT
security spoke with BIS’ acting chief information officer, who stated that BIS agreed with our
findings and recommendations.




                                                Page 3
                               OIG FY 2009 FISMA Assessment



Introduction

 BI provides headquarters and 11 field offices with services that include e-mail, office
 automation, correspondence and assignment tracking, secure remote file access, export
 licensing storage, and management of BIS legal documents. At headquarters, BIS relies on
 the Department’s network infrastructure to provide IT security services such as firewall
 protection, content monitoring and filtering, and network-based intrusion detection. BIS’
 deputy under secretary for Industry and Security authorized BI to operate on June 26, 2006.

 Because BI processes              data, BIS has categorized it as a                system,
 which means that a security breach could be expected to have a
        effect on organizational operations, organizational assets, or individuals.




                                           Page 4
                                  OIG FY 2009 FISMA Assessment

Findings and Recommendations

 1. Continuous Monitoring Has Not Been Conducted Since the FY 2006
       Accreditation
  Background: NIST SP 800-37 emphasizes that continuous monitoring is a critical aspect of
  certification and accreditation (C&A) and requires four essential activities: (1) configuration
  management and control of information system components, (2) security impact analyses of
  changes to the system, (3) assessment of security controls, and (4) status reporting.

  •	    Configuration management and security impact analyses have not been conducted.
         o	 Because system changes have not been managed, BIS system administrators
              could not explain, and the system security plan did not describe


          o	 The system inventory BIS provided does not accurately represent the current
             operational system (see table 1).
               	 BIS told us that 31 system components have been removed from the
                   accreditation boundary.
                       •	 Twenty-two are still listed on the system inventory despite having
                           been retired and disconnected from the network. Our assessments
                           confirmed they are no longer connected.
                       •	 Our assessments found nine of these system components to be
                           connected, active, and accessible. BIS staff was not aware these
                           components were still active and was unsure of the operational
                           impact of removing them.
                                o




          o	 Although significant changes have been made to the system, the security plan
             has not been updated since BI was last certified and accredited in 2006.
                Effective security protection requires a clear understanding of changes to
                   servers, workstations, laptops, and application software components.
                Comprehensive implementation of security controls requires an accurate
                   inventory of system components and applications.
               	 Security plans are required to be updated at least annually or when a
                   significant system change is made.

          o	 BIS did not conduct analyses to determine the security impact of system
             changes.
               	 Analysis is required to determine if changes to the system affect the
                   security controls currently in place, produce new vulnerabilities in the
                   system, or generate requirements for new security controls.
               	 Security impact analysis is an essential risk management activity,
                                                         .

  • Continuous assessment of security controls has not been done.
     o	 BIS reported to the Department Chief Information Officer (CIO) that annual
          assessments of security controls were conducted in FY 2007 and FY 2008.
          However, BIS could not provide OIG with the assessment procedures used to


                                              Page 5
                               OIG FY 2009 FISMA Assessment


         assess controls, assessment result artifacts, vulnerabilities identified by the
         assessments, or any other evidence to support its claim that annual assessments
         were conducted.
      o	 Vulnerability scanning was conducted by the Department, but BIS could not provide
         any evidence that the scanning results were analyzed or corrective actions were
         taken.
      o	 NIST emphasizes the importance of continuously assessing security controls to
         ensure they are operating as intended and protecting the information system
         appropriately.

 •	   BIS management and staff have not used the plan of action and milestones (POA&M)
      to manage known vulnerabilities.
      o	 No POA&MS were created to address vulnerabilities since 2006.
      o	 BIS also failed to add vulnerabilities known prior to C&A in 2006 to the POA&M.
          These vulnerabilities include

      o	 Some of the vulnerabilities BIS has not documented in a POA&M or corrected can
         be remediated by administrative actions requiring minimal effort, such as the
         following:




      o	 BIS asserted that it does not use the POA&M to record vulnerabilities that are fixed
         within 90 days of discovery or for which management accepts the associated risk.
         However, BIS could not provide any evidence of vulnerabilities that were
         remediated or for which risks were accepted.
      o	 POA&Ms are required to track and manage system weaknesses and inform the
         authorizing official of corrective actions needed, resources required, responsible
         individuals, and scheduled completion dates.

Recommendations

BIS should

 1.1 implement a change management methodology to approve system changes, conduct
     security impact analyses of changes to the system, and update the system security
     plan;

 1.2 develop and conduct continuous monitoring assessments of selected NIST 800-53 

     security controls using NIST SP800-53A as required by OMB; and 


 1.3 ensure that all known vulnerabilities are documented in the system’s POA&M or that
     the authorizing official is informed of and accepts the associated risk.




                                           Page 6
                              OIG FY 2009 FISMA Assessment



2. Significant Certification and Accreditation Deficiencies Previously
   Identified by OIG Have Not Been Corrected
 BI was certified and accredited June 26, 2006. OIG evaluated the C&A package as part of
 its FY 2006 Federal Information Security Management Act of 2002 (FISMA) evaluation and
 presented the following findings to BIS on March 7, 2007.

 •   OIG’s evaluation found that certification testing did not adequately assess the required
     security controls and that the authorizing official lacked information needed to make a
     credible, risk-based decision on whether to authorize system operation. As a result, in
     our FY 2006 FISMA report to OMB, we reported this system as not certified and
     accredited. We presented the following significant deficiencies requiring management
     attention:
         o The system security plan did not clearly describe the system architecture,
              component inventory, and implementation of security controls for a
              system.
         o Secure configuration settings for IT products were not established,
              implemented, or assessed.
         o Security control assessments were inadequate.
                    Assessment results were not provided.
                    Procedures to assess security controls were not applied to all system
                      components.
                    Controls were assessed by examining policy and interviewing staff
                      rather than examining or testing the controls’ implementation on
                      system components.
                    Vulnerability scanning did not assess all system components at
                               and
                    Penetration testing                                      was not
                      performed.
         o Contingency plan testing was not supported by evidence.

 •   In a memorandum dated March 19, 2007, BIS’ IT security officer informed OIG
     management that BIS had planned to reaccredit this system to address these
     deficiencies, as well as significant changes made since the FY 2006 accreditation, by
     December 2007. BIS’ then-CIO, in an e-mail to OIG management on January 8, 2009,
     stated that effort was not completed because of budget constraints.

 •   Since accrediting the system in FY 2006, BIS has not followed the Department IT
     security policy and NIST requirements for maintaining and monitoring system security
     controls.

 •   The system owner has not provided the authorizing official with assurance that the
     required controls are adequately protecting the system and its information.

 •   BI’s C&A expired on June 25, 2009. BIS is planning to migrate the information and
     functionality of BI to a new system. This migration, however, may not be completed
     until 2011 and is dependent on the development, deployment, and accreditation of the
     new system. Currently, BIS has no formal plan to reaccredit the BI system.




                                           Page 7
                               OIG FY 2009 FISMA Assessment


Recommendations

BIS should

 2.1 report to the Department that BI is not certified and accredited; and

 2.2 	manage the security risks of operating BI until it is retired by assessing the
      effectiveness of security controls, determining the remaining risks, developing and
      implementing a plan of action and milestones to mitigate those risks, and reporting
      regularly to the authorizing official and BIS’ acting CIO concerning the status of
      milestones.




                                           Page 8
                                    OIG FY 2009 FISMA Assessment



3. OIG Assessments Found Vulnerabilities Requiring Remediation
As part of OIG’s FY 2009 FISMA evaluation of the BIS IT Infrastructure, we assessed a
targeted set of system components to determine if selected security controls are properly
implemented on applicable IT products. We tailored our procedures to the infrastructure’s
specific control implementations, and we performed vulnerability scanning using Nessus.

  •       OIG assessments found this               system is not compliant with the Department
          IT security policy or NIST SP 800-53 requirements (see table 2 for examples). Security
          weaknesses we found include the following:




      •     Using the Nessus vulnerability scanner, we found significant vulnerabilities including

                                                                                         (see
            table 3).

Recommendation

3.1 BIS should ensure the vulnerabilities we identified are added to the system’s POA&M
    and either remediated or accepted by the authorizing official.




                                                Page 9
                                                       OIG FY 2009 FISMA Assessment



Table 1. System Components Not Properly Managed or Documented
Component Name IP Address             OIG Comments




                              *
                              *
                              *           These components have been retired, but are still listed in the system inventory.
                              *




                              *
                              *
                              *
                              *
                              *
                              *
                              *



                                          Although BI management claimed that these components had been retired from the system, they are
                                          still active and accessible from the network.




         *
*All component IP addresses and names (including those labeled “Unknown”) are excerpts from the system inventory.



                                                                   Page 10

                                                    OIG FY 2009 FISMA Assessment




Table 2. Vulnerabilities Identified by OIG Assessments




                                                              Page 11
                                                    OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified by OIG Assessments




                                                              Page 12
                                                    OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified by OIG Assessments
Security Control      NIST SP 800-53 Requirement                        Vulnerability




                                                              Page 13
                                                    OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified by OIG Assessments
Security Control      NIST SP 800-53 Requirement                        Vulnerability




                                                              Page 14
                                                    OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified by OIG Assessments
Security Control      NIST SP 800-53 Requirement                        Vulnerability




                                                              Page 15
                                                    OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified by OIG Assessments
Security Control      NIST SP 800-53 Requirement                         Vulnerability




                                                              Page 16

                                                     OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Identified by OIG Using the Nessus Vulnerability Scanner
Host Name        Port                Vulnerability Description




                                                                Page 17
                                                     OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Identified by OIG Using the Nessus Vulnerability Scanner




                                                                Page 18
                                                     OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Identified by OIG Using the Nessus Vulnerability Scanner
Host Name        Port                Vulnerability Description




                                                                Page 19
                                                     OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Identified by OIG Using the Nessus Vulnerability Scanner




                                                                Page 20

                                 OIG FY 2009 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2009 Federal Information Security Management Act (FISMA) reporting
requirements, we evaluated BIS’ continuous monitoring activities for the BIS IT Infrastructure
System (BI) since the system’s accreditation in FY 2006.
Continuous monitoring is a critical postaccreditation aspect of the security C&A process.
Effective continuous monitoring programs require four activities:

    •   configuration management and control of information system components
    •   security impact analyses of changes to the system
    •   assessment of security controls
    •   status reporting

NIST SP 800-53 notes that an effective continuous monitoring program results in ongoing
updates to the system security plan, the security assessment report, and the plan of action
and milestones (POA&M)—the three principle documents in the security accreditation
package. Through continuous monitoring, the authorizing official is kept apprised of the
security posture of the information system.

The objectives of our evaluation were to determine whether, as a result of continuous
monitoring, (1) the authorizing official is kept sufficiently informed about the operational status
and effectiveness of security controls, and (2) the agency promptly mitigates any identified
control deficiencies. We also sought to determine whether BIS has resolved the C&A
deficiencies we identified in our FY 2006 FISMA evaluation.

To evaluate BIS’ continuous monitoring efforts, we interviewed BIS staff to determine what
continuous monitoring activity had been performed and to gain further insight on the extent of
the security control monitoring. We requested security control monitoring results and
evidence; however, BIS was unable to provide any. We also requested an updated system
security plan and POA&M to determine if continuous monitoring reporting was adequately
performed, but BIS indicated neither had been updated.

In addition, we performed our own assessments of a selected set of security controls (see
appendix B) on a targeted set of IT components. We conducted our assessment using a
subset of procedures from NIST SP 800-53A, which we tailored to BI’s specific control
implementations. We did not attempt to perform a complete assessment of each control;
instead we chose to focus on specific technical and operational elements. We assessed
controls on key classes of IT components, choosing a targeted set of components from each
class that would represent the type of components implemented in the system. We also
assessed control implementations on                                                        as
well as
                 . In addition, we examined the security plan descriptions, including related
policy documents, and interviewed appropriate BIS personnel.

Our assessments included the following activities:

    •   extraction, examination, and verification of system configurations
    •   generation of system events and examination of system logs
    •   execution of the automated vulnerability scanning tool Nessus
    •   execution of Defense Information Systems Agency (DISA) scripts to assess secure
        configuration settings for IT products
    •   addition, modification, and deletion of accounts



                                             Page 21
                              OIG FY 2009 FISMA Assessment


Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a        system would require. However, our
assessments gave us direct assurance of the status of select aspects of important system
controls.

We used the following review criteria:
   •	 Federal Information Security Management Act of 2002 (FISMA)
   •	 U.S. Department of Commerce IT Security Program Policy and Minimum 

      Implementation Standards, June 30, 2005 

   •	 NIST Federal Information Processing Standards (FIPS)
           o	 Publication 199, Standards for Security Categorization of Federal Information
                and Information Systems
           o	 Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   •	 NIST Special Publications:
           o	 800-18, Guide for Developing Security Plans for Information Technology
                Systems
           o	 800-37, Guide for the Security Certification and Accreditation of Federal
                Information Systems
           o	 800-53, Recommended Security Controls for Federal Information Systems
           o	 800-53A, Guide for Assessing the Security Controls in Federal Information
                Systems
           o	 800-70, Security Configuration Checklists Program for IT Products
           o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (revised January 2005) issued by the
President’s Council on Integrity and Efficiency.




                                          Page 22
                             OIG FY 2009 FISMA Assessment



Appendix B: NIST SP 800-53 Security Controls Assessed by OIG

  •   Account Management (AC-2)
  •   Access Enforcement (AC-3)
  •   Least Privilege (AC-6)
  •   Unsuccessful Login Attempts (AC-7)
  •   System Use Notification (AC-8)
  •   Session Lock (AC-11)
  •   Auditable Events (AU-2)
  •   Audit Monitoring, Analysis, and Reporting (AU-6)
  •   Time Stamps (AU-8)
  •   Protection of Audit Information (AU-9)
  •   Audit Record Retention (AU-11)
  •   Configuration Settings (CM-6)
  •   Least Functionality (CM-7)
  •   User Identification and Authentication (IA-2)
  •   Device Identification and Authentication (IA-3)
  •   Authenticator Management (IA-5)
  •   Rules of Behavior (PL-4)
  •   Flaw Remediation (SI-2)
  •   Malicious Code Protection (SI-3)




                                        Page 23
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    Under Secretary for Industry and Security
Appendix C: BIS Response                            Washington, D.C. 20230


                                                                SiP Z5 Z009

 MEMORANDUM FOR ALLEN CRAWLEY
                Assistant Inspector General
                for Systems Acquisition and IT Security

 FROM:               L Daniel O. Hil~
                     U Acting Under Secretary
 SUBJECT:                 Draft Inspection Report No. OSE-195754: FY 2009
                          FISMA Assessment ofBIS IT Infrastructure (BI) (BIS002)


 Thank you for the opportunity to comment on the above-referenced draft OIG Report.
 As we discussed prior to the entrance conference for this inspection, the improvement of
 the Bureau's infrastructure and enterprise architecture is and remains a high priority. The
 findings and recommendations from the draft OIG Inspection Report have been reviewed
 and BIS does not dispute the findings.

 To ensure compliance moving forward, BIS will produce an action plan to not only
 address the OIG recommendations for BI but include those recommendations into the
 operation, monitoring and maintenance of the new infrastructure. As we also discussed
 previously, recent budget constraints and competing priorities for limited resources have
 impeded compliance with critical aspects of certification and accreditation. However, I
 want to assure the OIG that the requirements have been identified and the FY 2010
 President's Request will provide the resources needed to replace the BIS IT Infrastructure
 (BI002) with a more secure infrastructure. The implementation of the new
 Compartmentalized Application Infrastructure will enable the Bureau to follow the
 Department's IT security policy and NIST requirements.

 If you have any questions comments on our response, please contact Eddie Donnell, BIS'
 Acting Chief Information Officer, at (202) 482-4296.


 cc: Suzanne Hilding
     DOC Chief Information Officer
